                The Earned Income Credit Recertification
               Program Continues to Experience Problems

                                    March 2005

                       Reference Number: 2005-40-039




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   March 11, 2005


      MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                     DIVISION
                     COMMISSIONER, WAGE AND INVESTMENT DIVISION



      FROM:                       Pamela J. Gardiner
                                  Deputy Inspector General for Audit

      SUBJECT:                    Final Audit Report - The Earned Income Credit Recertification
                                  Program Continues to Experience Problems
                                  (Audit # 200340007)


      This report presents the results of our review of the Earned Income Credit (EIC)
      Recertification Program. The overall objective of this review was to evaluate Internal
      Revenue Service (IRS) corrective actions to recommendations in our December 2000
      report on the IRS’ EIC Recertification Program.1 Our prior report recommendations
      were intended to better safeguard Federal Government funds and help ensure the
      protection of taxpayer rights with the least amount of burden to taxpayers.
      In 1997, the Congress implemented legislation2 to help prevent taxpayers from
      incorrectly receiving the EIC. In response, the IRS implemented the EIC Recertification
      Program in 1999, making taxpayers subject to recertification if they had the EIC denied
      during an examination. This denial places recertification indicators on taxpayers’
      accounts to help prevent future EIC claims from being accepted until they prove they
      are eligible to receive the EIC again. Once taxpayers meet evidentiary requirements,
      they are “recertified,” and the IRS should remove the recertification indicators. The
      number of taxpayers subject to this recertification tripled from 336,000 taxpayers as of
      September 1999 to almost 1 million taxpayers as of December 2003.



      1
        Improvements Are Needed in the Earned Income Credit Recertification Program (Reference Number 2001-40-030,
      dated December 2000).
      2
        Taxpayer Relief Act of 1997, Pub. L. No. 105-34, 111 Stat. 788 (codified as amended in scattered sections of
      5 U.S.C., 19 U.S.C., 26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
                                                         2

This report includes an evaluation of the EIC Recertification Program as it relates to the
effectiveness of the IRS corrective actions to our prior report recommendations. The
conditions identified in our prior report included not accurately removing recertification
indicators, not timely releasing suspended refunds, not clearly and accurately
communicating with taxpayers, and the need to change certain processing procedures
and the recertification criteria for certain taxpayers. We did not review those processes
and procedures that we previously reported were working as intended, so we do not
comment on them in this report. Also, while some of the analysis and evaluations of
corrective actions in this report are several months old, we believe the conditions and
issues we identified are still valid and the recommendations we make are still relevant to
the current environment.
The IRS has taken some corrective actions to improve the EIC Recertification Program.
For example, it has developed monthly reports to identify accounts needing the
recertification indicators removed or refunds released, performed “clean-ups” to remove
indicators that should have been removed previously or to release refunds, and
implemented programming to automatically remove indicators or release refunds based
on certain Examination function closing actions. The IRS also implemented
programming to help prevent unnecessary examinations and adopted our prior
recommendation to change the recertification of certain taxpayers.
While the corrective actions did have some positive impact, many were ineffective,
incomplete, or inaccurate. Additionally, the IRS did not specifically address some of our
prior recommendations. As a result, we believe the conditions and problems previously
identified have not improved, leading to taxpayers not receiving the EIC; delayed
refunds; increased taxpayer burden for taxpayers forced to recertify more than 1 time;
wasted IRS resources; and a loss of Federal Government funds, including
approximately $110 million3 of EIC allowed without taxpayers demonstrating they were
entitled to receive the EIC. We believe these conditions also cause taxpayer confusion
about the EIC Recertification Program, which could result in taxpayers not claiming the
EIC they are entitled to receive or not questioning incorrect IRS denials of the EIC. Not
receiving the EIC could then subject these low-income taxpayers to financial hardship.
The IRS does not have a consistent process for ensuring recertification indicators are
accurately removed. We estimate that, as of April 2003, 52,000 taxpayers did not have
recertification indicators removed from their accounts when the EIC was allowed; over
10,000 of them had almost $21 million of EIC improperly denied. We also estimate
approximately 14,800 taxpayers had the recertification indicators incorrectly removed
from their accounts or were allowed approximately $26.5 million of EIC without
demonstrating they were entitled to it.
The IRS had not timely released approximately $4 million in incorrectly suspended
refunds for over 3,200 taxpayers. These refunds had been incorrectly suspended for an


3
 The total of $110 million is the $26.5 million stated in the next paragraph plus the $84 million mentioned on the
following page and in the second bullet on page 20 of the report.
                                             3

average of over 1 year. After we referred this problem to the IRS, additional delays of
1 year occurred to release approximately 1,000 of these refunds.
The IRS sent taxpayers approximately 850,000 letters or electronic messages that did
not clearly or accurately communicate the EIC recertification requirements, did not
specifically inform taxpayers they were recertified, or referred to an enclosed
recertification tax form that was not in fact enclosed. This made it harder for taxpayers
to understand and comply with recertification requirements.
The IRS had significant problems trying to implement changes regarding when
taxpayers are recertified. For example, the IRS provided inconsistent information to
taxpayers and IRS employees as to what tax years would be affected by the changes.
Additionally, programming problems caused some taxpayers to have their EIC
incorrectly denied, while allowing approximately 36,000 others $84 million of EIC
without their having to demonstrate they were entitled to receive it.
We recommended the Commissioner, Wage and Investment Division, develop clear,
consistent, and comprehensive guidelines explaining when taxpayers are recertified and
ensure employees are consistently applying the guidelines. Requests for computer
programming should be more detailed, and programming should be sufficiently tested
before being implemented. Required quality reviews should be performed and the
results evaluated for any necessary corrective actions. Inventory reports should be
modified and evaluated to help ensure Examination closing actions are appropriate.
Problem Correction Reports should identify unresolved suspended refunds and be
worked timely. Communications to taxpayers should be further revised to inform them
when they are recertified and to notify potentially eligible taxpayers about the
income-only EIC. The communications should also clearly explain why the EIC is not
being allowed, that filing an Information to Claim Earned Income Credit After
Disallowance (Form 8862) does not by itself recertify taxpayers, and that filing
Form 8862 will likely result in an examination. Additionally, the IRS should include
Form 8862 with the letters that deny the EIC because Form 8862 was not filed. Finally,
existing computer programming should be corrected to prevent certain electronically
filed returns claiming the EIC from being incorrectly rejected.
Management’s Response: IRS management agreed with our recommendations and
has initiated corrective actions. Examples include:
      Updating the Internal Revenue Manual to clearly explain the criteria that causes
       the automated release of suspended taxpayer refunds and developing a job aide
       that will remind tax examiners to remove recertification indicators and release
       frozen refunds when automation will not.
      Programming changes to correct the Problem Correction Reports and make
       them more manageable.
      Sending clear letters to taxpayers informing them of the potential for EIC without
       a qualifying child when a recertification indicator is on their account and informing
       them when they have successfully recertified for the EIC.
                                            4

      Revising communications to taxpayers to include language on the recertification
       process and the Form 8862.
IRS management also agreed with our outcome measures, with the exception of the
$20.8 million (reported as “almost $21 million”) in EIC improperly denied. Management
believes there was too wide a range of variability caused by the precision level used to
calculate this measure, and therefore they do not agree with the figure we report.
However, they do acknowledge that the IRS improperly denied the EIC by auditing
taxpayers whose recertification indicator should have been removed. Management’s
complete response to the draft report is included as Appendix V.
Office of Audit Comment: While we acknowledge a wide range of variability in the
calculation of this outcome measure, we believe the $20.8 million figure to be an
appropriate measure of the potential impact of improperly denying the EIC to taxpayers.
Instead of using the precision level stated in the report, which provided an outcome
measure as high as $84 million, we used the average amount of the child-related EIC
allowed by the IRS for tax returns processed during Calendar Years 2001 to 2003 times
the number of projected cases where the EIC was improperly denied to arrive at the
$20.8 million figure. In addition, the $20.8 million is conservative because our sample
was taken at a “point in time” and there would have been additional taxpayers who had
the EIC improperly denied that would not have been included in our calculation.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (202) 927-0597.
                            The Earned Income Credit Recertification Program
                                   Continues to Experience Problems




                                                  Table of Contents


Background ............................................................................................... Page 1
Corrective Actions Were Taken to Improve the
Recertification Program............................................................................. Page 3
Recertification Indicators on Taxpayers’ Accounts
Are Not Always Accurate........................................................................... Page 5
         Recommendation 1: .......................................................................Page 9
         Recommendation 2: .......................................................................Page 10
         Recommendation 3: .......................................................................Page 11

Taxpayers Did Not Always Timely Receive Refunds................................. Page 12
         Recommendation 4: .......................................................................Page 13

Communications With Taxpayers Do Not Fully Explain
the Recertification Requirements .............................................................. Page 13
         Recommendation 5: .......................................................................Page 18

Changes Regarding When Taxpayers Are Recertified
Were Not Effectively Implemented ........................................................... Page 18
         Recommendation 6: .......................................................................Page 21

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 22
Appendix II – Major Contributors to This Report ....................................... Page 25
Appendix III – Report Distribution List ....................................................... Page 26
Appendix IV – Outcome Measures............................................................ Page 27
Appendix V – Management’s Response to the Draft Report ..................... Page 36
             The Earned Income Credit Recertification Program
                    Continues to Experience Problems

                           The Congress established the Earned Income Credit (EIC)
Background
                           to help alleviate poverty and provide work incentives to
                           low-income taxpayers. For Calendar Year (CY) 2003, over
                           21 million taxpayers received the EIC, totaling almost
                           $37 billion.
                           The most recent Internal Revenue Service (IRS) study of
                           EIC compliance estimated that between $8.5 billion and
                           $9.9 billion of the EIC claims filed for Tax Year (TY) 1999
                           should not have been paid to taxpayers.1 To help address
                           the EIC compliance problems, the Congress passed
                           legislation requiring taxpayers that had the EIC denied
                           during examinations to prove eligibility before receiving the
                           EIC again.2 In response to this legislation, the IRS
                           implemented the EIC Recertification Program in 1999. The
                           number of taxpayers subject to recertification tripled from
                           336,000 taxpayers as of September 1999 to almost
                           1 million taxpayers as of December 2003.
                           There are two ways taxpayers qualify for the EIC, and the
                           amount allowed is dependent on the income level, the filing
                           status, and the number of qualifying children claimed.
                           •   Child-Related EIC – taxpayers claiming one or two
                               qualifying children. For TY 2003, it ranges from $1 to
                               approximately $4,200 and reaches zero when earned
                               income reaches approximately $34,700 for married
                               filing jointly taxpayers and $33,700 for other taxpayers.
                           •   Income-Only3 EIC – taxpayers that meet age
                               requirements but do not claim children for EIC
                               purposes. For TY 2003, it ranges from $1 to
                               approximately $380 and reaches zero when earned
                               income reaches $12,230 for married filing jointly
                               taxpayers and $11,230 for other taxpayers.




                           1
                             August 2004, IRS Earned Income Tax Credit Initiative
                           Status Report to Congress.
                           2
                             Taxpayer Relief Act of 1997, Pub. L. No. 105-34, 111 Stat. 788
                           (codified as amended in scattered sections of 5 U.S.C., 19 U.S.C.,
                           26 U.S.C., 29 U.S.C., 31 U.S.C., 42 U.S.C., and 46 U.S.C. app.).
                           3
                             Also commonly referred to as EIC with no qualifying children.
                                                                                            Page 1
The Earned Income Credit Recertification Program
       Continues to Experience Problems

              The recertification process
              The recertification requirement begins after the IRS
              examines a taxpayer’s tax return and denies the EIC
              claimed, which places a recertification indicator on the
              taxpayer’s account. This indicator helps prevent, although it
              does not ensure, the taxpayer from receiving the EIC again
              until he or she demonstrates eligibility to receive it. Once
              the taxpayer meets the evidentiary requirements to prove
              eligibility, he or she is “recertified,” and the IRS should
              remove the recertification indicator.
              There are two common methods to begin the recertification
              process.
              •   The taxpayer can request an examination
                  reconsideration to reevaluate the examination results
                  that denied the EIC. If the IRS then allows the EIC
                  previously denied, the taxpayer is recertified.
              •   The taxpayer can file an Information to Claim Earned
                  Income Credit After Disallowance (Form 8862) with the
                  next tax return that claims the child-related EIC. This
                  alerts the IRS that the taxpayer wants to begin the
                  recertification process. The IRS then determines
                  whether to examine the taxpayer.
                  If an examination is conducted, the IRS requests
                  evidentiary documentation from the taxpayer to
                  determine if he or she should be recertified. Generally,
                  a tax return with a Form 8862 should be examined
                  unless (1) the taxpayer had previously met
                  recertification requirements, but the IRS had not
                  removed the recertification indicator, or (2) the taxpayer
                  is serving in a combat zone.
              In December 2000, we issued a report on the IRS’ EIC
              Recertification Program4 that included recommendations to
              help improve the Program. Our current report details our
              evaluation of the effectiveness of the IRS corrective actions
              to our prior recommendations. We did not review those
              processes and procedures that we previously reported were
              working as intended, so we do not comment on them in this

              4
               Improvements Are Needed in the Earned Income Credit Recertification
              Program (Reference Number 2001-40-030, dated December 2000).
                                                                          Page 2
                    The Earned Income Credit Recertification Program
                           Continues to Experience Problems

                                  report. Also, while some of the analysis and evaluations of
                                  corrective actions in this report are several months old, we
                                  believe the conditions and issues we identified are still valid
                                  and the recommendations we make are still relevant to the
                                  current environment.
                                  Our current audit was performed at the Compliance function
                                  of the Wage and Investment (W&I) Division Headquarters
                                  in Atlanta, Georgia, and at the Fresno, California, and
                                  Austin, Texas, Compliance Sites5 during the period May
                                  2003 through May 2004. The audit was conducted in
                                  accordance with Government Auditing Standards. Detailed
                                  information on our audit objective, scope, and methodology
                                  is presented in Appendix I. Major contributors to the report
                                  are listed in Appendix II.
                                  The IRS took actions to address some of the conditions
Corrective Actions Were Taken
                                  discussed in our prior report. Some specific actions to
to Improve the Recertification
                                  address our recommendations included the following.
Program
                                  •   Recommendation: Ensure the IRS accurately removes
                                      recertification indicators. Corrective Actions: The IRS
                                      established monthly Problem Correction Reports to
                                      identify accounts needing the indicators removed,
                                      performed a clean-up to remove indicators that should
                                      have been removed previously, implemented
                                      programming to automatically remove indicators based
                                      on certain Examination function closures, and revised
                                      processing procedures. The IRS also implemented
                                      “filter programming” to help prevent tax returns from
                                      being examined if the IRS had previously allowed the
                                      EIC but did not remove the indicators.
                                  •   Recommendation: Timely release suspended refunds.
                                      Corrective Actions: The IRS performed a clean-up to
                                      identify refunds that needed to be released and
                                      developed monthly Problem Correction Reports to
                                      identify any subsequent accounts needing refunds
                                      released. The IRS also revised its computer programs to
                                      immediately release the portion of the refunds not
                                      related to the questioned EIC claims, and to


                                  5
                                   A Compliance site is an IRS office that handles the process of
                                  examining income tax returns.
                                                                                                    Page 3
The Earned Income Credit Recertification Program
       Continues to Experience Problems

                  automatically release any remaining refunds when
                  Examination function actions were complete.
              •   Recommendation: Clearly and accurately communicate
                  with taxpayers. Corrective Action: The IRS revised the
                  letter that informs taxpayers their EIC is being denied
                  during an examination and they are now subject to
                  recertification.
              •   Recommendation: Instruct employees as to what is
                  needed to prove taxpayers are qualified to receive the
                  income-only EIC. Corrective Action: The IRS revised
                  processing procedures to specifically instruct employees
                  as to what information and actions are needed to prove
                  taxpayers are qualified to receive the income-only EIC
                  during examinations that deny the child-related EIC.
              •   Recommendation: Change the EIC Recertification
                  Program to help ensure taxpayers are recertified for the
                  reason the EIC was denied. Corrective Action: The IRS
                  changed the EIC Recertification Program so taxpayers
                  denied the child-related EIC will not be considered to be
                  recertified simply by claiming and receiving the
                  income-only EIC.
              While the IRS’ corrective actions did have some positive
              impact, many of the actions were ineffective, incomplete, or
              inaccurate. Additionally, the IRS did not specifically
              address some of our prior recommendations.
              Ineffective corrective actions led to taxpayers not receiving
              the EIC or not timely receiving refunds, taxpayer burden in
              the form of unnecessary examinations or time and costs
              preparing unnecessary forms, unclear or confusing
              communications to taxpayers that made it difficult for them
              to understand and comply with the EIC recertification
              requirements, wasted IRS resources, and a loss of Federal
              Government funds. In addition, taxpayers may become
              confused and give up on the recertification process and not
              receive their EIC. The confusion issue was reported to the




                                                                     Page 4
                    The Earned Income Credit Recertification Program
                           Continues to Experience Problems

                                  IRS in an April 2002 Government Accountability Office
                                  report.6
                                  While we recognize that the population of taxpayers in the
                                  recertification program has tripled since our prior report, we
                                  believe that the conditions and problems previously
                                  identified have not improved. For example:
                                  •   The estimated number of taxpayer accounts that did not
                                      have recertification indicators accurately removed
                                      increased from 15,500 to almost 64,000.
                                  •   The average refund delay increased from 9 weeks
                                      identified in our prior report to over 1 year for over
                                      3,200 taxpayers.
                                  •   The number of inadequate IRS communications to
                                      taxpayers increased from approximately 400,000 to
                                      850,000.
                                  Having accurate recertification indicators is crucial to the
Recertification Indicators on
                                  success of the EIC Recertification Program. However, the
Taxpayers’ Accounts Are Not
                                  IRS does not have a consistent process for ensuring
Always Accurate
                                  recertification indicators are accurately removed. The IRS
                                  did not properly or timely remove recertification indicators
                                  for some taxpayers who had been recertified, while other
                                  taxpayers had the indicators improperly removed from their
                                  accounts.
                                  Not removing indicators caused some taxpayers to have
                                  their EIC incorrectly denied during original tax return
                                  processing or during examinations. For example, the EIC
                                  can be denied when taxpayers become confused and simply
                                  accept IRS decisions7 to deny the EIC or when IRS
                                  employees make incorrect decisions to deny the EIC.
                                  Additionally, unnecessary examinations forced some
                                  taxpayers to recertify more than one time, causing taxpayer
                                  burden and wasting IRS resources. Improper removal of
                                  indicators allowed some taxpayers to receive the EIC



                                  6
                                    EARNED INCOME CREDIT Opportunities to Make Recertification
                                  Program Less Confusing and More Consistent (GAO-02-449, dated
                                  April 2002).
                                  7
                                    If taxpayers become confused and do not respond to IRS
                                  correspondence, the EIC is automatically denied.
                                                                                           Page 5
The Earned Income Credit Recertification Program
       Continues to Experience Problems

              without having to demonstrate they were entitled to
              receive it.
              Recertification indicators were not properly or timely
              removed from taxpayer accounts
              We estimate that, as of April 2003, 52,000 taxpayers still
              had recertification indicators on their accounts even though
              the IRS had allowed subsequent EIC claims and the
              indicators should have been removed. While subsequent
              IRS actions corrected many of these accounts, we estimate
              17,000 of these taxpayers still had the recertification
              indicators on their accounts as of March 2004, almost a year
              later. Additionally, of the 52,000 taxpayers, we estimate
              that 10,500 had EIC claims of almost $21 million
              improperly denied and 17,000 had their EIC claims
              unnecessarily examined.
              Recertification indicators were improperly removed
              from taxpayer accounts
              We estimate the IRS improperly removed recertification
              indicators from 11,900 taxpayer accounts between
              January 2002 and August 2003. The improper removal of
              the recertification indicators allowed taxpayers to receive
              almost $20 million of EIC without proving they were
              entitled to receive it.
              We define “improper removal” as removing indicators
              without the taxpayers demonstrating they were eligible to
              receive the EIC again. This included either of the following
              situations:
              •   The IRS had not allowed the EIC during a tax year
                  subject to recertification.
              •   IRS Examination function employees made incorrect
                  decisions when closing returns without examinations
                  (commonly referred to as nonexamined closures).
                  While the decision not to examine the return is incorrect,
                  allowing the EIC without examining the return still
                  recertifies the taxpayers and the recertification indicators
                  should be removed.




                                                                       Page 6
The Earned Income Credit Recertification Program
       Continues to Experience Problems

              Programming to help prevent unnecessary examinations
              was not fully effective
              The IRS implemented “filter programming” in January 2003
              to help prevent returns from being unnecessarily examined
              for those taxpayers previously allowed the EIC without
              having recertification indicators removed. This
              programming helped prevent some taxpayers from having to
              recertify more than once and helped prevent the EIC from
              being improperly denied during examinations.
              Although the filter programming identified approximately
              14,000 returns for the period January 2003 through early
              August 2003, we identified problems affecting
              approximately 5,000 of the 14,000 returns.
              •   Approximately 2,200 tax returns should have been sent
                  to the Examination function for examination but were
                  not. Specifically, the filter programming incorrectly
                  prevented the examinations. These 2,200 taxpayers
                  received an estimated $5.1 million of EIC without
                  having to demonstrate eligibility to receive the EIC
                  again.
              •   Approximately 2,000 tax returns processed during
                  January and February 2003 were unnecessarily
                  examined, with over 900 taxpayers having their EIC
                  claims incorrectly denied. The IRS identified the
                  2,000 returns using listings based on revisions to filter
                  programming in February 2003. The IRS’ intent was to
                  not examine these returns; however, the returns were
                  examined, in part because the IRS did not provide
                  adequate instructions for processing the listings.
              •   Approximately 700 tax returns, processed in January
                  and February 2003 and claiming an estimated
                  $1.6 million of EIC, were going to be closed without
                  examinations due to programming problems. After we
                  advised the IRS of the problems, it revised the filter
                  programming and advised the Compliance sites that
                  these 700 returns needed to be examined.
              Causes for inaccurate indicators
              Some causes for the incorrect recertification indicators are
              similar to those identified in our prior report. Additionally,
                                                                      Page 7
The Earned Income Credit Recertification Program
       Continues to Experience Problems

              although the IRS took corrective actions based on our prior
              recommendations, the actions taken were not effective.
              •   The IRS did not develop clear, consistent, and
                  comprehensive guidelines for determining when
                  taxpayers are actually recertified, which caused
                  confusion among IRS employees.
              •   The programming to generate monthly Problem
                  Correction Reports, implemented in March 2002,
                  identified only a small percentage of the accounts
                  needing the recertification indicators removed. The
                  programming did not include relevant information that
                  we provided in our prior report to help identify accounts
                  needing indicators removed. Additionally, the IRS did
                  not revise the programming in CY 2003 to reflect
                  changes for processing recertification-related tax
                  returns.
              •   The July 2003 clean-up programming removed
                  recertification indicators for approximately
                  25,000 taxpayers. However, the clean-up identified
                  less than one-half of the accounts needing the indicators
                  removed and incorrectly removed approximately 5,000
                  of the 25,000 indicators. Based on our referral, the IRS
                  partially corrected the programming and removed
                  over 9,000 additional indicators.
              •   The requests to develop recertification programming did
                  not have sufficient details to ensure the programming
                  was complete and accurate. In addition, programming
                  was not sufficiently tested before being implemented.
              •   Employees outside the Examination function allowed
                  the EIC for some taxpayers subject to recertification
                  without obtaining approval from the Examination
                  function. The IRS’ intent is to have Examination
                  function employees make the decisions as to whether to
                  allow the EIC for taxpayers subject to recertification.
                  This helps ensure the decisions to allow the EIC are
                  correct and the recertification indicators are accurately
                  removed. However, the IRS did not develop controls to
                  ensure Examination function employee involvement in
                  the decisions to allow the EIC.

                                                                     Page 8
The Earned Income Credit Recertification Program
       Continues to Experience Problems

              •   The IRS did not adequately analyze inventory reports to
                  identify incorrect decisions by Examination function
                  employees to allow the EIC without examining the
                  related tax returns (nonexamined closures).
                  Additionally, the inventory reports did not contain
                  information that would have made it easier to identify
                  nonexamined closure problems. For example, the
                  inventory reports included only one type of
                  nonexamined closure, and this one type did not have
                  separate volumes for each EIC Program.
              •   The IRS did not always perform, or adequately evaluate,
                  the required quality review of nonexamined closures.
              Recent Management Actions: The IRS designed new
              programming for CY 2004 to automatically remove the
              recertification indicators based on certain Examination
              function closures. The IRS expects this programming
              change will impact a large percentage of the Examination
              function cases and should significantly reduce the number
              of indicators that are not properly removed. However, our
              evaluation of the programming showed problems that would
              incorrectly remove indicators for some taxpayers while not
              removing indicators for other taxpayers.
              Based on our referral, IRS management advised us they had
              corrected some of the programming problems we identified,
              but several others remained. Due to time constraints, we
              were unable to evaluate the overall effectiveness of the final
              programming.

              Recommendations

              To help ensure EIC recertification indicators on taxpayer
              accounts are accurate and taxpayers receive the EIC only
              when they are entitled to it, the Commissioner,
              W&I Division, should:
              1. Develop clear, consistent, and comprehensive guidelines
                 explaining when taxpayers are recertified and ensure the
                 guidelines are consistently followed. Recertification
                 guidelines should explain the EIC Recertification
                 Program complexities and nuances so managers,
                 analysts, programmers, and other individuals will be
                 able to know exactly how the Program should be
                                                                     Page 9
The Earned Income Credit Recertification Program
       Continues to Experience Problems

                 implemented. This will allow IRS employees to know
                 what should be included in processing procedures,
                 letters to taxpayers, tax publications, tax packages, and
                 tax forms.
              Management’s Response: The IRS plans to update the
              Internal Revenue Manual (IRM) to include clear language
              explaining recent computer programming changes and the
              criteria that causes the automated release of suspended
              taxpayer refunds. The IRS will also develop a job aide that
              will remind tax examiners to remove recertification
              indicators and release frozen refunds when automation will
              not.
              IRS management disagreed with the $20.8 million (reported
              above as “almost $21 million”) in EIC improperly denied.
              Management believes there was too wide a range of
              variability caused by the precision level used to calculate
              this measure, and therefore they do not agree with the figure
              we report. However, they do acknowledge that the IRS
              improperly denied the EIC by auditing taxpayers whose
              recertification indicator should have been removed.
              Office of Audit Comment: While we acknowledge a wide
              range of variability in the calculation of this outcome
              measure, we believe the $20.8 million figure to be an
              appropriate measure of the potential impact of improperly
              denying the EIC to taxpayers. Instead of using the precision
              level stated in the report, which provided an outcome
              measure as high as $84 million, we used the average amount
              of the child-related EIC allowed by the IRS for tax returns
              processed during CYs 2001 to 2003 times the number of
              projected cases where the EIC was improperly denied to
              arrive at the $20.8 million figure. In addition, the
              $20.8 million is conservative because our sample was taken
              at a “point in time” and there would have been additional
              taxpayers who had the EIC improperly denied that would
              not have been included in our calculation.
              2. Correct existing EIC Recertification Program computer
                 programming and ensure future requests for
                 programming are of sufficient detail to ensure applicable
                 IRS employees know exactly what is needed. The
                 computer programming should be sufficiently tested to
                 identify and correct potential problems prior to
                                                                    Page 10
The Earned Income Credit Recertification Program
       Continues to Experience Problems

                 implementation. In addition, computer programming
                 should ensure the EIC allowed for recertification cases
                 reflects the approval of Examination function
                 employees.
              Management’s Response: The IRS completed testing in
              early December 2004 on a current computer programming
              request to correct Problem Correction Reports and make
              them more manageable. For future programming requests,
              analysts and programmers will work closely to ensure
              testing and delivery of desired functionality.
              3. Ensure required quality reviews of nonexamined
                 closures are performed, the results are evaluated, and
                 corrective actions are taken if appropriate. The IRS
                 should change Examination function inventory reports
                 to include counts for each type of nonexamined closure
                 for each EIC Program. These inventory reports should
                 be evaluated to help ensure nonexamined closures are
                 appropriate.
              Management’s Response: The IRM requires managerial
              approval of all nonexamined closures, with the exception of
              those cases closed “accepted as filed” by the Classification
              function. The IRS requested this exception to eliminate the
              burden placed on managers to review and approve such
              closures when significant volumes generate at one time.
              However, quality reviews were made of a percentage of
              these cases. Since that time, systemic programming
              changes have been implemented to reduce the volume of
              these closures from 28,580 in Fiscal Year 2002 to 1,365 in
              Fiscal Year 2004 across all 5 W&I Division sites.
              The IRS does not plan to change the inventory reports to
              include counts for each type of nonexamined closure since
              the current Audit Inventory Management System reports
              stratify the closures by project code. These reports are
              reviewed and monitored. However, Headquarters
              Examination and Quality Analysts will work together to
              review the quality review procedures and the results of the
              reviews performed to determine if any changes should be
              made.



                                                                   Page 11
                    The Earned Income Credit Recertification Program
                           Continues to Experience Problems

                                  The IRS did not always release refunds timely. The IRS
Taxpayers Did Not Always
                                  suspends refunds when taxpayers subject to recertification
Timely Receive Refunds
                                  file tax returns with Forms 8862. When Examination
                                  function processing actions are complete, any refunds due
                                  the taxpayers should be released. Beginning with CY 2004
                                  processing, the IRS suspends only that portion of the refund
                                  related to the total EIC claimed. Prior to 2004, the IRS
                                  suspended the entire refund.
                                  We reported this same issue in our December 2000 report
                                  and stated that refund delays occurred in part because IRS
                                  procedures did not provide time periods for releasing
                                  suspended refunds. To address this issue, the IRS
                                  implemented programming in March 2002 to generate
                                  monthly Problem Correction Reports to identify accounts
                                  whose refunds had not been released. The IRS response to
                                  our prior report stated that the IRS planned to provide
                                  instructions to employees to work the Problem Correction
                                  Reports within 5 business days. The IRS also planned a
                                  clean-up to identify accounts needing to have the refunds
                                  released.
                                  However, during CY 2003, we identified over
                                  3,200 taxpayer accounts with refunds totaling over
                                  $3.9 million that were not timely released, with delays
                                  averaging over 1 year. After we referred this problem to the
                                  IRS, additional delays of 1 year or more occurred to release
                                  approximately 1,000 of the 3,200 refunds.
                                  Overall, delays occurred because:
                                  •   The Problem Correction Report programming did not
                                      identify some accounts needing to have refunds
                                      released.
                                  •   The Problem Correction Reports at 4 of 10 Compliance
                                      sites were not worked at all, and 2 sites did not work the
                                      reports timely. Also, the IRS did not evaluate monthly
                                      summary reports that clearly showed some Compliance
                                      sites were not working the Problem Correction Reports.
                                  •   The processing procedures at the time of our review did
                                      not include instructions to work the Problem Correction
                                      Reports within 5 business days.


                                                                                        Page 12
                   The Earned Income Credit Recertification Program
                          Continues to Experience Problems

                                 •   The clean-up did not identify or otherwise resolve all
                                     accounts needing to have refunds released.
                                 Recent Management Actions: In addition to the
                                 programming change that allows the IRS to immediately
                                 release that portion of the refund not related to the EIC
                                 claim, the IRS also implemented programming changes in
                                 CY 2004 to automatically release any remaining refunds
                                 when Examination function actions were complete. While
                                 we were unable to test the programming during our audit,
                                 the IRS has stated that the programming was working as
                                 intended.

                                 Recommendation

                                 To further ensure taxpayers timely receive EIC refunds
                                 affected by the recertification process, the Commissioner,
                                 W&I Division, should:
                                 4. Ensure Problem Correction Reports identify unresolved
                                    suspended refunds, issue procedures for completing
                                    actions for the Problem Correction Reports within
                                    specified time periods, and evaluate monthly summary
                                    reports to assure the Problem Correction Reports are
                                    worked timely.
                                 Management’s Response: As detailed in the response to
                                 Recommendation 2, the programming to fix the reports was
                                 tested and the corrected output was distributed beginning on
                                 January 4, 2005. Per the IRM, the Examination function
                                 has 5 days to work the report by annotating actions taken.
                                 The Examination function is required to maintain these
                                 listings for 6 months.
                                 One of the IRS Commissioner’s priorities is to make it
Communications With Taxpayers
                                 easier for taxpayers to understand and comply with the EIC
Do Not Fully Explain the
                                 tax law. However, a number of IRS communications sent to
Recertification Requirements
                                 taxpayers regarding the EIC Recertification Program are
                                 incomplete, inaccurate, or do not clearly explain the
                                 recertification process. These communications included
                                 approximately 850,000 letters or electronic messages sent to
                                 taxpayers as discussed below.
                                 We believe that unclear, confusing, or inaccurate
                                 communications can make it difficult for taxpayers to
                                                                                      Page 13
The Earned Income Credit Recertification Program
       Continues to Experience Problems

              understand and comply with the EIC recertification
              requirements and that a significant number of taxpayers
              would have been confused by these communications.
              This may cause taxpayers to give up on the recertification
              process and not receive their EIC.
              Communications did not contain specific information to
              assist taxpayers
              The IRS did not specifically inform taxpayers that they were
              recertified or that potentially qualified taxpayers subject to
              recertification might be entitled to the income-only EIC.
              •   Over 100,000 taxpayers had recertification indicators
                  removed during CYs 2002 or 2003 without being
                  specifically informed they were recertified and did not
                  need to subsequently file Form 8862. This contributed
                  in part to over 50,000 taxpayers unnecessarily filing
                  Forms 8862 in CY 2003.
                  Specific notification would help prevent taxpayers from
                  spending time and/or money submitting unnecessary
                  Forms 8862, help prevent taxpayer confusion, and help
                  ensure taxpayers receive the EIC. It would also provide
                  documentation to help taxpayers resolve examinations
                  or EIC denial letters8 incorrectly caused when IRS
                  employees do not remove recertification indicators.
              •   If taxpayers do not claim the income-only EIC, the IRS
                  normally sends a letter9 to notify potentially eligible
                  taxpayers that they might be entitled to receive it.
                  However, these letters are not sent to taxpayers who are
                  subject to recertification.
                  We stated in our prior report that over 6,000 taxpayers
                  subject to recertification did not receive the letter for the
                  first 9 months of CY 1999. Although we do not have
                  estimates for subsequent years, based on IRS statistics
                  that over 40 percent of taxpayers sent this letter respond
                  and receive the income-only EIC, we believe a
                  significant number of eligible taxpayers subject to
                  recertification did not receive the income-only EIC.

              8
                The Math Error Code 653 notice sent when taxpayers subject to
              recertification claim the EIC for paper returns without filing Form 8862.
              9
                Notice number Computer Paragraph (CP) 27.
                                                                              Page 14
The Earned Income Credit Recertification Program
       Continues to Experience Problems

              One type of letter was incomplete
              One type of letter used to deny the EIC during tax return
              processing was incomplete. Specifically, the letter stated
              Form 8862 was being included with the letter, but the Form
              was not included. Over 200,000 taxpayers did not receive
              the Forms 8862 as enclosures during CYs 2001 through
              2003. Taxpayers needing Forms 8862 then had to otherwise
              obtain the Forms.
              One type of letter was inaccurate and unclear
              The IRS sends letters10 advising taxpayers that they are
              subject to recertification. The IRS sent over 370,000 of
              these letters in CY 2003.
              •    The letter had two inaccurate headings as to when
                   Forms 8862 should be filed. The IRS fixed the
                   inaccurate headings in June 2003 after our referral.
                   If taxpayers followed the inaccurate instructions, they
                   would have had their EIC denied during tax return
                   processing.
              •    The IRS response to our prior report stated that the IRS
                   revised the letter to tell taxpayers they may qualify for
                   the income-only EIC even though the child-related EIC
                   was denied. However, the letter was later changed and
                   the revised wording that constituted the corrective action
                   was deleted.
              Two types of communications did not clearly explain the
              recertification process
              Our current audit identified additional problems not
              included in our prior report. Specifically, taxpayers subject
              to recertification who claim the EIC but do not file
              Forms 8862 with their original tax returns will receive one
              of two types of IRS communications. These include a reject
              message11 when the IRS rejects electronically filed returns
              or a letter when the EIC is denied for paper returns.12 For
              CY 2003, this included over 176,000 reject messages and



              10
                 Notice number CP 79.
              11
                 Reject Code 600.
              12
                 Math error notices with Math Error Code 653.
                                                                     Page 15
The Earned Income Credit Recertification Program
       Continues to Experience Problems

              over 35,000 letters.13 However, these two types of
              communications do not clearly explain the recertification
              process.
              •    The communications do not adequately explain why the
                   EIC is not being allowed. Specifically, the IRS does not
                   explain that the EIC was previously denied during an
                   examination and Form 8862 is needed to begin the
                   recertification process.
              •    The communications may lead some taxpayers to
                   believe simply filing Form 8862 will recertify them.
                   For example, the reject message states, “IRS Master File
                   indicates that the taxpayer must file Form 8862 to claim
                   [the] Earned Income Credit after disallowance.” This
                   message encourages taxpayers to resubmit returns with
                   Forms 8862 without regard to whether the taxpayers
                   believe they have documentation to prove EIC
                   eligibility. Although the letter to taxpayers filing paper
                   returns does state that additional information might be
                   requested, the wording still implies the Form 8862
                   recertifies the taxpayer.
              •    The communications do not explain that filing
                   Form 8862 will likely result in an examination, with
                   taxpayers being asked to provide additional information.
                   A comparison shows the reject message for electronic
                   returns does not state that additional information may be
                   requested, while the letter for paper returns states that
                   additional information “might” be requested.
              For those taxpayers who file Forms 8862 believing this by
              itself recertifies them, the following adverse situations could
              result:
              •    IRS examination procedures could subject the taxpayers
                   to a 2-year ban for receiving the EIC due to reckless or
                   intentional disregard of the EIC rules. For example, the
                   IRS may apply the 2-year ban if taxpayers subject to
                   recertification claim the EIC again without being able to
                   provide sufficient documentation during an examination.

              13
                 These 35,000 are also included in the total of 200,000 “incomplete”
              letters without Forms 8862, but they are not counted twice in the
              850,000 total for letters or electronic messages sent to taxpayers.
                                                                             Page 16
The Earned Income Credit Recertification Program
       Continues to Experience Problems

              •   The IRS could unnecessarily expend resources to
                  examine returns for taxpayers who did not know they
                  needed documentation to prove EIC eligibility.
              Causes for the communication problems
              We identified several causes for the IRS communication
              problems.
              •   The IRS did not adopt our prior report recommendation
                  to specifically advise taxpayers they are recertified. In
                  addition, corrective actions were incomplete to notify
                  potentially eligible taxpayers subject to recertification
                  that they might be eligible for the income-only EIC.
              •   The IRS had advised us during our prior audit that
                  corrective action had been taken to provide Form 8862
                  as an enclosure, but the IRS did not ensure the corrective
                  action was implemented.
              •   The inaccurate information in letters advising taxpayers
                  they are subject to recertification occurred because the
                  IRS had not clearly defined which tax year would be the
                  first year for which Form 8862 would not be needed to
                  receive the income-only EIC. This issue is also a cause
                  for problems discussed further in the next section of this
                  report.
              Recent Management Actions: The IRS stated it has revised
              Publication 596 (Earned Income Credit (EIC)) to provide
              clearer information about the recertification process. The
              Publication provides instructions explaining when taxpayers
              are required or not required to provide Form 8862, and
              advises taxpayers that additional documents may be
              required to verify EIC even if Form 8862 is submitted. In
              addition, the IRS revised the Form 8862 to make it clearer
              and to reduce the time needed to complete the Form, and
              developed a new EIC for Taxpayers Without a Qualifying
              Child (Form 886-H-EIC) to help taxpayers determine if they
              qualify for income-only EIC.

              Recommendation

              To further ensure taxpayers are properly and accurately
              notified about their involvement in the EIC Recertification

                                                                    Page 17
                     The Earned Income Credit Recertification Program
                            Continues to Experience Problems

                                   Program and information provided to the taxpayers after
                                   filing their return is complete and understandable, the
                                   Commissioner, W&I Division, should:
                                   5. Further revise communications to taxpayers to
                                      specifically inform them when they are recertified and
                                      notify potentially eligible taxpayers subject to
                                      recertification that they may still be entitled to the
                                      income-only EIC.14 The IRS should also revise
                                      communications15 to clearly explain why the EIC is not
                                      being allowed, that filing Form 8862 does not by itself
                                      recertify taxpayers, and that filing Form 8862 will likely
                                      result in an examination. Additionally, the IRS should
                                      include Form 8862 with the letters that deny the EIC
                                      because Form 8862 was not filed.
                                   Management’s Response: The IRS requested computer
                                   programming changes to send letters to taxpayers informing
                                   them of the potential for EIC without a qualifying child
                                   when a recertification indicator is on their account and
                                   informing them when they have successfully recertified for
                                   the EIC. In addition, communications were revised or are
                                   being revised to include language on the recertification
                                   process and include the Form 8862.
                                   During our prior review, simply filing a Form 8862 and
Changes Regarding When
                                   receiving the income-only EIC for less than $350 would
Taxpayers Are Recertified Were
                                   recertify taxpayers. These taxpayers could then receive up
Not Effectively Implemented
                                   to $3,800 of the child-related EIC without proving
                                   eligibility to receive it. This situation did not ensure only
                                   eligible taxpayers received the EIC, so we recommended the
                                   IRS change the guidelines for the EIC Recertification
                                   Program regarding when taxpayers are recertified.
                                   The IRS adopted our recommendation and issued new
                                   regulations in June 2001. Under the new regulations, as
                                   they relate to taxpayers denied the child-related EIC during
                                   examinations:




                                   14
                                    Using Notice Number CP 27.
                                   15
                                    Electronic message Reject Code 600 and math error notices with
                                   Math Error Code 653.
                                                                                              Page 18
The Earned Income Credit Recertification Program
       Continues to Experience Problems

              •   Taxpayers have to file a Form 8862 with tax returns that
                  claim the child-related EIC and demonstrate they are
                  entitled to the EIC before being recertified.
              •   Taxpayers do not have to file a Form 8862 to receive the
                  income-only EIC, but these taxpayers would not be
                  considered recertified.
              While the new regulations prevented over 40,000 taxpayers
              from being recertified simply because the taxpayers
              received the income-only EIC during CY 2003, the IRS had
              significant difficulties implementing the regulations.
              Specifically, the IRS provided inconsistent information to
              taxpayers and IRS employees and experienced three
              programming problems for CY 2003 processing. These
              programming problems resulted in loss of Federal
              Government funds, denial of taxpayer rights and
              entitlements, and increased taxpayer burden.
              Inconsistent information
              The IRS provided inconsistent information to taxpayers and
              IRS employees as to which tax years would be affected by
              the new regulations. We compared the letters sent to
              taxpayers denying the EIC, the Form 8862 Instructions, and
              the IRS processing procedures. Each of these documents
              differed as to the first tax year that Form 8862 would not be
              required to receive the income-only EIC. The first tax year
              included TYs 2001, 2002, and 2003, respectively.
              The inconsistent information occurred because the IRS did
              not clearly define which tax year would be the first for
              which Form 8862 would not be needed to receive the
              income-only EIC. After we raised this issue, the IRS
              decided TY 2002 would be the first year that Forms 8862
              would not be required for taxpayers claiming the
              income-only EIC. We believe the inconsistent information
              would have confused IRS employees and taxpayers.
              Incorrect programming
              Not having a clear definition of which tax year would be the
              first year for which Form 8862 would not be needed for the
              income-only EIC contributed to three programming
              problems. This allowed taxpayers to incorrectly receive a
              significant amount of the EIC. Additionally, this caused
                                                                   Page 19
The Earned Income Credit Recertification Program
       Continues to Experience Problems

              some taxpayers to not receive the income-only EIC, to have
              their refunds delayed, or to expend time and money
              submitting unnecessary Forms 8862.
              •   The IRS incorrectly denied income-only EIC totaling
                  over $400,000 for more than 2,100 taxpayers who filed
                  paper TY 2002 returns without Forms 8862. We
                  advised the IRS of the related programming problem in
                  February 2003 during the planning phase of this review.
                  Although the IRS took timely action allowing the EIC
                  for over 900 taxpayers, delays of more than 1 year have
                  occurred for allowing the EIC for the remaining
                  1,200 taxpayers. Programming changes resulting from
                  our referral did allow correct processing for over
                  21,000 taxpayers to receive the income-only EIC
                  amounting to over $4.7 million during CY 2003.
              •   The IRS incorrectly allowed $84 million in child-related
                  EIC claimed by approximately 36,000 taxpayers who
                  filed TY 2002 paper returns. These taxpayers received
                  the EIC without filing a Form 8862 and without having
                  to provide documentation during examinations proving
                  that they were actually entitled to the EIC. When we
                  advised the IRS of this programming problem, we were
                  informed the IRS had identified the problem 1 week
                  earlier and the problem occurred while fixing the
                  programming condition described above for the
                  income-only EIC.
              •   The IRS incorrectly rejected electronically filed
                  TY 2002 returns claiming the income-only EIC without
                  a Form 8862. Although we do not know the number
                  affected, we believe some taxpayers would not have
                  received the EIC because they would have been
                  confused and would therefore not have resubmitted
                  rejected returns.

              Recommendation

              The IRS took corrective action for the first two
              programming problems discussed above; the third
              programming problem had not been corrected at the time of
              this audit. Consequently, to ensure taxpayers are not

                                                                  Page 20
The Earned Income Credit Recertification Program
       Continues to Experience Problems

              required to file unnecessary Forms 8862 and taxpayers
              receive the EIC, the Commissioner, W&I Division, should:
              6. Change computer programming, where appropriate, so
                 electronically filed returns claiming the income-only
                 EIC are not rejected because Forms 8862 are not filed.
              Management’s Response: The IRS is revising programming
              to not reject electronically filed individual tax returns that
              claim the EIC without qualifying children (income-only
              EIC) and without a Form 8862 attached when an EIC
              recertification indicator is present.




                                                                    Page 21
                      The Earned Income Credit Recertification Program
                             Continues to Experience Problems

                                                                                            Appendix I


                        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate Internal Revenue Service (IRS) corrective
actions to recommendations in our first audit report on the Earned Income Credit (EIC)
Recertification Program.1 The recommendations made in that report were intended to better
safeguard Federal Government funds and help ensure the protection of taxpayer rights with the
least amount of burden to taxpayers. Due to time constraints and because the prior findings that
resulted in two recommendations had been addressed by the Government Accountability Office2
and by one of our other reports,3 our current audit evaluated corrective actions on only 7 of
12 prior report recommendations.
Recertification indicators have several “values,” depending on why the EIC is being denied. Our
audit covered only value “1,” which principally includes the child-related EIC4 denied for other
than reckless or intentional disregard of the EIC rules or fraud. Value 1 covers by far the largest
number of taxpayers subject to recertification and had grown from 336,000 taxpayers as of
September 1999 to almost 1 million as of December 2003. To accomplish our objective, we:
I.      Evaluated the corrective action to Recommendation 1 in our December 2000 report
        regarding accurately removing recertification indicators.
        A. Determined whether recertification indicators were released when the IRS allowed
           the EIC claimed in a recertification tax year. This included reviewing 5 separate
           random samples totaling 1,100 taxpayer accounts and evaluating various IRS
           programming. We used random samples to be able to project to the related
           populations the number of “exception cases” and the related dollar amounts. See
           Appendix IV for sample selection information.
        B. Evaluated the Calendar Year (CY) 2003 “filter programming” designed to prevent
           examinations of tax returns on which the EIC had been previously allowed without
           removing the recertification indicators. Our methodology would identify returns that
           should not have been filtered (examinations were incorrectly prevented) but would
           not identify returns that should have been but were not filtered (examinations were
           not prevented).



1
  Improvements Are Needed in the Earned Income Credit Recertification Program (Reference
Number 2001-40-030, dated December 2000).
2
  EARNED INCOME CREDIT Opportunities to Make Recertification Program Less Confusing and More
Consistent (GAO-02-449, dated April 2002).
3
  Earned Income Credit Was Paid to Taxpayers Who Did Not Provide Required Documentation During Audits
(Reference Number 2002-40-004, dated October 2001).
4
  Taxpayers claiming the EIC with one or two qualifying children.
                                                                                                  Page 22
                         The Earned Income Credit Recertification Program
                                Continues to Experience Problems

         C. Evaluated the IRS programming logic used to generate monthly Problem Correction
            Reports to identify accounts that need to have recertification indicators removed. We
            also evaluated the request for computer programming to automatically remove
            recertification indicators for CY 2004 processing. This programming would remove
            recertification indicators based on various Examination function closing actions.
         D. Discussed the required 5 percent review of specific nonexamined returns with IRS
            National Headquarters employees and 2 Compliance Sites.5
II.      Evaluated the corrective action to Recommendation 3 in our December 2000 report.
         Specifically, we evaluated whether the IRS procedures adequately advised IRS
         employees when to remove recertification indicators.
III.     Evaluated the corrective actions to Recommendations 4 and 5 in our December 2000
         report regarding incorrectly suspended refunds. Specifically, we determined whether the
         IRS identified and resolved incorrectly suspended refunds and whether there were
         systemic problems that would prevent suspended refunds from going to taxpayers.
         A. From the IRS Individual Master File,6 obtained the identity of taxpayer accounts
            reflecting either of two specific freeze conditions that “suspended” refunds for EIC
            recertification returns as of August 4, 2003, and a file with the identity of the
            accounts included in the August 4, 2003, monthly Problem Correction Reports.
         B. Performed various database queries and comparisons on these files to help evaluate
            the programming for the monthly Problem Correction Reports. In addition, we
            determined whether the various IRS Compliance sites timely released refunds for
            accounts identified on the monthly Problem Correction Reports. This included
            sending surveys to the Compliance sites as to whether the reports were worked.
IV.      Evaluated the corrective action to Recommendation 10 in our December 2000 report.
         Specifically, we determined whether IRS communications with taxpayers clearly
         informed and educated taxpayers regarding the recertification process.
         A. Evaluated letters sent to taxpayers when the EIC is allowed for a recertification tax
            year to determine whether these letters specifically advise taxpayers that their EIC is
            being allowed and that the taxpayers are now recertified.
         B. Evaluated the letter (Computer Paragraph 79) sent to taxpayers when the EIC is
            denied during an examination.
         C. Evaluated the letter sent to taxpayers (math error letter for Math Error Code 653)
            when the IRS denies the EIC because taxpayers did not submit an Information to


5
  A Compliance site is an IRS office that handles the process of examining income tax returns. The two Compliance
Sites were Austin, Texas, due to the high volume of recertification cases; and Fresno, California, the post of duty for
the audit team.
6
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                              Page 23
                          The Earned Income Credit Recertification Program
                                 Continues to Experience Problems

               Claim Earned Income Credit After Disallowance (Form 8862) with their original
               paper tax returns. We also determined whether Form 8862 and related Form 8862
               Instructions were sent to taxpayers.
           D. Evaluated the electronically filed tax return reject message (Reject Code 600)
              wording used to inform taxpayers that their tax returns are being rejected because
              Forms 8862 were not filed.
V.         Evaluated the corrective action to Recommendation 11 in our December 2000 report.
           Specifically, we determined whether the IRS advised potentially qualified taxpayers via
           letters (Computer Paragraph 27) that the taxpayers might be entitled to the income-only
           EIC;7 for example, taxpayers meeting age and income requirements and whose accounts
           have a recertification indicator value of 1.
VI.        Evaluated the corrective action to Recommendation 12 in our December 2000 report.
           Specifically, we determined whether the IRS implemented our recommendation to
           consider changing the EIC Recertification Program regarding when taxpayers are
           recertified. We evaluated the June 25, 2001, IRS regulations that adopted
           Recommendation 12 in our December 2000 report; discussed the regulations with
           personnel in the IRS National Headquarters and Office of Chief Counsel to determine the
           IRS’ intent regarding the June 25, 2001, regulations; and determined whether IRS
           programming for returns filed in CY 2003 correctly allowed the income-only EIC when
           no Form 8862 was filed.




7
    Taxpayers claiming the EIC that meet age requirements but do not claim children for EIC purposes.


                                                                                                        Page 24
                   The Earned Income Credit Recertification Program
                          Continues to Experience Problems

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Richard J. Calderon, Audit Manager
Larry A. Mart, Lead Auditor
Kathleen A. Hughes, Senior Auditor
John Kirschner, Senior Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                         Page 25
                   The Earned Income Credit Recertification Program
                          Continues to Experience Problems

                                                                             Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:C&L
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Compliance Services Campus Operations, Small Business/Self-Employed Division
    SE:S:CSCO
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Field Director, Compliance Services (Austin) SE:W:CP:CS:AU
Field Director, Compliance Services (Fresno) SE:W:CP:CS:F
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
    Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
    Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                   Page 26
                     The Earned Income Credit Recertification Program
                            Continues to Experience Problems

                                                                                    Appendix IV


                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Funds Put to Better Use – Potential; 14,800 taxpayers for $26.5 million (see page 5).
Methodology Used to Measure the Reported Benefit:
The $26.5 million for 14,800 taxpayers includes 3 different totals:
    1. Total of $19.8 million from Samples 1 – 3 below. This result affects 11,900 taxpayers.
              Sample 1              4,900 taxpayers         $5.8 Million
              Sample 2              4,800 taxpayers         $7.0 Million
              Sample 3              2,200 taxpayers         $7.0 Million
                     Totals        11,900 taxpayers        $19.8 Million

    2. Total of $5.1 million from Sample 4. This result affects 2,200 taxpayers.
    3. Total of $1.6 million from Item 5. This result affects 700 taxpayers.
Sample 1
In July 2003, the Internal Revenue Service (IRS) removed approximately 25,000 recertification
indicators from taxpayers’ accounts during a clean-up to remove indicators not previously
removed when the Earned Income Credit (EIC) was allowed. We took a random sample of
200 accounts and analyzed the accounts to determine whether the recertification indicators
should have been removed. This evaluation was only to determine whether the IRS allowed the
EIC claimed during a recertification tax year. We did not obtain the related tax returns to
determine if the decisions to allow the EIC were correct. Results indicate that 39 (19.5 percent)
of the 200 accounts had the indicators incorrectly removed.
    ¾ Using the 19.5 percent error rate times the population of 25,000 provides an estimate that
      4,900 accounts incorrectly had the indicators removed. This outcome results in a
      95 percent confidence level with a +/- 6 percent precision level.
    ¾ We estimate these 4,900 taxpayers received approximately $5.8 million (4,900 times the
      average of $1,180 per taxpayer) of EIC for Tax Year (TY) 2003 returns without the
      taxpayers having to demonstrate eligibility to receive it. This estimate is +/- $2.5 million,
      for a range of $3.3 million to $8.3 million with a 90 percent confidence level.

                                                                                            Page 27
                         The Earned Income Credit Recertification Program
                                Continues to Experience Problems

The estimates will increase with each subsequently filed return on which these taxpayers claim
the EIC.
Note: Our estimates are conservative because our different samples did not take exception with
those recertification indicators removed for “pick-up” tax year returns1 closed as no-change and
on which the EIC was allowed. Ideally, these would not meet recertification requirements.
However, not counting these taxpayers as being recertified would subject the taxpayers to a
second examination to prove EIC eligibility. We raised the issue to the IRS as to whether it
would be appropriate for the IRS to make a business decision to consider these taxpayers to be
recertified.
Sample 2
In addition to the July 2003 clean-up, IRS employees removed recertification indicators from
approximately 66,000 accounts during the period January 2002 through August 4, 2003
(cycles 200201 through 200330). We took a random sample of 250 accounts and analyzed the
accounts to determine if the recertification indicators should have been removed. This
evaluation was only to determine if the IRS allowed the EIC claimed during a recertification tax
year. We did not obtain the related tax returns to determine if the decisions to allow the EIC
were correct.
Sample results indicate that 18 (7.2 percent) of the 250 accounts had the indicators incorrectly
removed. Using the 7.2 percent error rate times the population of 66,000 provides an estimate
that 4,800 accounts incorrectly had the indicators removed. Based on these results, our
projection has a 95 percent confidence level with a +/- 4 percent precision level.
    ¾ We estimate these 4,800 taxpayers received over $7.0 million (4,800 times the average of
      $1,470 per taxpayer) of EIC for TYs 2002 and 2003 returns without the taxpayers having
      to demonstrate eligibility to receive the EIC. This estimate is +/- $4.6 million, for a range
      of $2.4 million to $11.6 million with a 90 percent confidence level.
    ¾ We believe these estimates are conservative because our only criterion for determining
      whether the recertification indicators were correctly removed for this sample was whether
      the EIC claimed was allowed during a recertification tax year. Additionally, the
      estimates will increase with each subsequently filed return on which these taxpayers
      claim the EIC.
Sample 3
We identified approximately 12,000 tax returns closed as nonexamined and reflecting an EIC
Recertification Program Examination Project Code for the period August 12, 2002, through
August 4, 2003 (cycles 200231 through 200330). We excluded various categories of
nonexamined closures (returns claiming the income-only EIC, accounts with Criminal
Investigation function transactions, returns intended by the IRS National Headquarters to be

1
  A pick-up tax year return is defined as a newly filed tax return selected for examination due to the taxpayer having
a tax return currently open in examination.
                                                                                                             Page 28
                           The Earned Income Credit Recertification Program
                                  Continues to Experience Problems

closed as nonexamined via filter programming, and other miscellaneous categories). We
excluded these categories to provide a population for which Examination function employees
would have decided to allow the child-related EIC.
This left 4,900 returns from which we took a random sample of 200 and determined if the
decisions to close the returns as nonexamined were appropriate. Closing the returns as
nonexamined would recertify the taxpayers, and the recertification indicators should have been
removed. When necessary, we obtained the related tax returns to help determine if the decisions
to allow the EIC were correct.
Sample results indicate 90 (45 percent) of the 200 returns had incorrect decisions to allow the
EIC, which resulted in an average of $3,200 in EIC per taxpayer being allowed.
       ¾ Using the 45 percent error rate times the population of 4,900 provides an estimate that
         2,200 accounts had the EIC incorrectly allowed. Based on these results, our projection
         has a 95 percent confidence level with a +/- 7 percent precision level.
       ¾ We estimate these 2,200 taxpayers received over $7.0 million of EIC (2,200 taxpayers
         times the average of $3,200 per taxpayer) for 1 or more tax periods without the taxpayers
         having to demonstrate eligibility to receive the EIC. This estimate is +/- $1.3 million, for
         a range of $5.7 million to $8.3 million with a 90 percent confidence level.
We believe the $7.0 million amount is conservative. For example, if we had used a 19-month
sample period rather than a 12-month sample period, we would have had a population of
11,600 closures rather than 4,900 and our monetary projection would be higher.
Sample 4
For the period January 2003 through August 4, 2003, we obtained from the IRS Individual
Master File2 the identity of approximately 8,000 taxpayer accounts for which “filter
programming” prevented examinations. This included accounts reflecting (1) an EIC
recertification indicator value of “1,” (2) an Audit [Examination] Code “U” indicating an
Information to Claim Earned Income Credit After Disallowance (Form 8862) had been filed,
(3) child-related EIC claimed, and (4) no Examination function-related transaction codes. We
took a random sample of 200 of these 8,000 accounts and reviewed the accounts to determine if
the programming correctly prevented examinations when the EIC had been previously allowed
without removing the recertification indicators.
Sample results indicate that 56 (28 percent) of the 200 accounts had the EIC incorrectly allowed
without taxpayers having to demonstrate that they were eligible to receive the EIC, which
resulted in an average of $2,300 in EIC per taxpayer being allowed.
       ¾ Using this 28 percent error rate times the population of 8,000 provides an estimate that
         2,200 accounts incorrectly had the EIC allowed. Based on these results, our projection
         has a 95 percent confidence level with a +/- 7 percent precision level.

2
    The IRS database that maintains transactions or records of individual tax accounts.
                                                                                             Page 29
                           The Earned Income Credit Recertification Program
                                  Continues to Experience Problems

       ¾ We estimate these 2,200 taxpayers received approximately $5.1 million in EIC
         (2,200 taxpayers times the $2,300 average per taxpayer) for TY 2002 returns without
         the taxpayers having to demonstrate eligibility to receive the EIC. This estimate is
         +/- $1.1 million, for a range of $4.0 million to $6.2 million with a 90 percent confidence
         level.
Item 5
In February 2003, the IRS filter programming identified approximately 6,100 returns processed
in January and February 2003 for which examinations would not be conducted. We evaluated
the filter programming used to identify these returns to determine if the programming prevented
examinations (filtered out returns) for only those taxpayers that should be considered recertified.
Based on our findings, the IRS re-ran the filter programming for the 6,100 returns and identified
approximately 700 returns for which examinations should take place. The EIC claimed for these
returns is estimated to be approximately $1.6 million. This estimate is based on an average EIC
allowed of approximately $2,340 for approximately 3,700 filter returns, closed as nonexamined,
on which the EIC amounts were allowed.
We believe the $1.6 million amount is conservative because changes to IRS programming,
based on our findings, would have helped safeguard revenue for returns processed after
February 2003.
Type and Value of Outcome Measure:
•      Taxpayer Rights and Entitlements – Actual; 26,300 taxpayers for $9 million (see pages
       11 and 18).
Methodology Used to Measure the Reported Benefit:
The $9.0 million for 26,300 taxpayers includes 3 different totals:
       1. Total of $3.9 million from Item 1. This result affects 3,200 taxpayers.
       2. Total of over $400,000 from Item 2. This result affects over 2,100 taxpayers.
       3. Total of $4.7 million from Item 3. This result affects over 21,000 taxpayers.
Item 1 – Delayed Refunds
We obtained from the IRS Individual Master File a file containing the identity of taxpayer
accounts reflecting either of two specific freeze conditions (Transaction Codes 570 and 810) that
“suspended” refunds for EIC recertification as of August 4, 2003 (cycle 200330). We then
obtained from the IRS a file with the identity of the accounts included in the August 4, 2003,
monthly Problem Correction Reports. We then matched the two files to determine if all
“suspended” refund accounts were properly included in the IRS Problem Correction Accounts.
We also surveyed each Compliance site3 as to whether they resolved the “suspended” refunds

3
    A Compliance site is an IRS Office that handles the process of examining income tax returns.
                                                                                                   Page 30
                    The Earned Income Credit Recertification Program
                           Continues to Experience Problems

reported to them on the monthly Reports. Our file match and surveys identified the following
situations involving accounts with delayed refunds:
   ¾ Approximately 900 accounts, with suspended refunds totaling approximately
     $1.6 million, which did not appear on the monthly Problem Correction Reports.
   ¾ Approximately 1,900 accounts with suspended refunds totaling approximately
     $1.8 million. The monthly Problem Correction Reports were not worked at all for
     four Compliance sites.
   ¾ Approximately 400 accounts with suspended refunds totaling approximately $500,000.
     The monthly Problem Correction Reports were not worked timely at 2 Compliance sites
     (they did not work the reports within 3 weeks of receiving the reports).
The $3.9 million and 3,200 taxpayer figures are conservative. For example:
   ¾ There are five different Problem Correction Reports that come out monthly. By
     definition, each account that appeared on some of these Reports had delayed refunds, but
     our outcome includes only those accounts not worked or not worked timely.
   ¾ We computed the delay only from the time the Examination function closed the case (as
     evidenced by the Transaction Code 421 posting cycle), rather than using the time the
     refund was actually suspended when the related tax returns initially posted.
   ¾ We computed our delay to only 3 weeks after cycle 200330 (our extract cycle) and not to
     the actual cycle the refunds were issued, which could have been as much as 1 year or
     more after our referral to the IRS (this occurred for approximately 1,000 of the
     3,200 refunds).
   ¾ Our totals would not have included all the accounts over a several year period for which
     taxpayers would have contacted the IRS to receive their delayed refunds.
Item 2 – Incorrectly Denied Income-Only EIC
This included 2,100 taxpayers and $400,000, which are totals for the following 2 situations:
   ¾ In February 2003, we identified a programming problem with not allowing the
     income-only EIC for TY 2002. The IRS subsequently did a clean-up that identified
     900 taxpayers who were then allowed the income-only EIC.
   ¾ In August 2003, based on our IRS Individual Master File extracts, we identified another
     1,200 taxpayers who did not receive the income-only EIC and referred these to the IRS
     for corrective action. This included returns processed during a 2-week period in
     March 2003 that the IRS did not identify during the clean-up mentioned immediately
     above. However, as of November 2004 and subsequent to the end of fieldwork, the IRS
     had not taken corrective action to ensure these taxpayers received the income-only EIC.
Note: The IRS also denied income-only EIC totaling over $100,000 for an additional
400 taxpayers, but these taxpayers contacted the IRS and were allowed the EIC prior to our
                                                                                          Page 31
                     The Earned Income Credit Recertification Program
                            Continues to Experience Problems

August 2003 referral. The fact that only 400 taxpayers questioned the EIC denial indicates
taxpayers are often confused to the point they will not protest having their EIC incorrectly
denied.
Item 3 – Changes to Computer Programming
The IRS took corrective action to computer programming problems that denied income-only EIC
for TY 2002 returns. This then allowed correct processing for over 21,000 taxpayers to receive
income-only EIC amounting to over $4.7 million in 2003. We identified these taxpayers from
queries of information obtained from the IRS Individual Master File for tax returns posting from
January 2003 through August 4, 2003 (cycles 200301 through 200330). This included tax
returns claiming income-only EIC for accounts with recertification indicators having value 1.
Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; 10,500 taxpayers for $20.8 million
    (see page 5).
Methodology Used to Measure the Reported Benefit:
We obtained the identity of taxpayer accounts reflecting recertification indicator values of 1 from
a 1 percent sample of all taxpayers on the IRS Individual Master File as of April 7, 2003. This
sample included 8,760 taxpayer accounts and projects to a population of 876,000 accounts
having the indicator as of April 7, 2003. We took a random sample of 250 accounts and
analyzed the accounts to determine if the recertification indicators were appropriate. If the
indicators had not been removed when the EIC claims were allowed, we determined if
subsequent EIC claims were denied.
Sample results indicate 15 (6 percent) of the 250 accounts did not have the indicators removed
when the EIC claimed was allowed. Three (1.2 percent of the 250) of these 15 accounts later had
EIC denied for an average EIC dollar amount of $4,100 per account. Projecting these error rates
to the population of 876,000 accounts, we determined there were approximately 52,000 accounts
that still had an erroneous indicator. Of these 52,000 accounts, 10,500 had the EIC later denied
improperly (see next 2 bullets), and 17,000 had erroneous examinations performed (see last
section).
    ¾ Using the 1.2 percent error rate times the population of 876,000 provides an estimate that
      10,500 accounts had the EIC later denied. Based on these results, our projection has a
      95 percent confidence level with a +/- 2 percent precision level.
    ¾ We estimate these 10,500 accounts then had the EIC later denied for an estimated
      $20.8 million. We arrived at this dollar amount by multiplying 10,500 times $1,980,
      which is the average amount of child-related EIC allowed by the IRS for tax returns
      processed during the Calendar Years (CY) 2001 to 2003.
       We used this logic for computing the dollar amount to provide a conservative figure as
       compared to the significant range that would otherwise be obtained using statistical

                                                                                           Page 32
                       The Earned Income Credit Recertification Program
                              Continues to Experience Problems

        projections. The final figure of $20.8 million would be in the lower 25 percent of that
        dollar range.
        The $20.8 million is also conservative because our sample was taken at a “point in time”
        as of April 2003.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; approximately 480,000 letters or electronic messages sent to
    taxpayers that did not clearly or accurately communicate the EIC recertification
    requirements, and over 50,000 taxpayers who filed unnecessary tax forms (see page 13).
Methodology Used to Measure the Reported Benefit:
See the first 3 items below that comprise the 480,000. The 370,000 Computer Paragraph
(CP) 79 letters mentioned in Item 4 below are not being claimed as an outcome for this report
because a May 2004 Treasury Inspector General for Tax Administration report4 has already
claimed an outcome measure (for problems different from those we currently identified).
Item 1 – Not Specifically Advising Taxpayers They Were Recertified
The IRS did not specifically advise over 100,000 taxpayers they were recertified when the IRS
removed recertification indicators during CYs 2002 and 2003. The over 100,000 figure would
be the total of (1) 66,000 recertification indicators removed by individual IRS employees based
on our computer analysis of transactions posting to the IRS Individual Master File for the period
January 2002 through August 4, 2003; (2) 25,000 removed via a July 2003 IRS clean-up;
(3) 9,600 removed in December 2003 by additional computer programming as partial corrective
action to problems we referred to the IRS in 2003; and (4) other recertification indicators (we did
not obtain the actual number) removed by individual IRS employees from August 5, 2003,
through December 31, 2003.
Item 2 – Forms 8862 Not Included With Math Error Letters
The IRS sent over 200,000 Math Error 653 letters total during CYs 2001 through 2003. These
letters stated that Form 8862 was being included with the letter, but the Form 8862 was not
included. The IRS provided us the volumes of these letters sent that included approximately
73,800; 93,100; and 35,700 for CYs 2001, 2002, and 2003, respectively.
Item 3 – Inadequate Explanations for Denying the EIC
Both electronically filed tax returns and paper tax returns did not adequately explain why the
EIC was being denied for over 210,000 taxpayers for CY 2003 processing.
    ¾ If taxpayers subject to recertification do not file a Form 8862 with their electronically
      filed tax returns, the IRS rejects the returns and provides a reject message. For CY 2003,
      the IRS rejected over 176,000 electronic returns for not having a Form 8862. We

4
 The Clarity and Accuracy of Taxpayer Notices Are Actively Being Improved (Reference Number 2004-40-099,
dated May 2004).
                                                                                                    Page 33
                          The Earned Income Credit Recertification Program
                                 Continues to Experience Problems

           obtained this information from the weekly Service Center Error Reject Codes Report
           dated October 3, 2003, for Reject Code 600.
      ¾ If taxpayers do not file a Form 8862 with their paper returns, the IRS denies the EIC and
        sends a letter to the taxpayers. For CY 2003, this would include the same 35,700 returns
        discussed above for Math Error 653 letters not having Forms 8862 for CY 2003, so these
        35,700 are not included in the overall total of approximately 480,000 communications
        with problems.
These numbers are very conservative because they do not include volumes prior and subsequent
to CY 2003 processing.
Item 4 – Problems With Letter CP 79
Corrective action to letter CP 79 resulted in inaccurate information and clarity issues. The IRS
sent over 370,000 of these letters during 2003.
Item 5 – Form 8862 Not Needed and/or Incorrectly Requiring Form 8862
During CY 2003, over 50,000 taxpayers filed a Form 8862 that was not needed when filing an
electronic or paper return. This resulted in part because (1) the IRS did not specifically advise
taxpayers they were recertified or (2) the IRS had programming problems that incorrectly
required taxpayers to file a Form 8862 with electronic TY 2002 returns.
      ¾ The IRS electronic filing (ELF) weekly processing reports track the number of tax returns
        for which a Form 8862 is not needed at the times the ELF returns are processed.
        Specifically, these are returns with a Form 8862 and a recertification indicator value of
        zero (0) per the report heading “8862 EITC5 Acc: No Recertification/0.” This included
        over 30,000 returns processed in CY 2003.
      ¾ From the IRS Individual Master File, we identified tax returns posting from January 2003
        through August 4, 2003, (cycles 200301 through 200330) with an Audit [Examination]
        Code U (indicating Form 8862 is present). Our queries identified, for TY 2002,
        approximately 15,000 electronic returns and approximately 5,000 paper returns claiming
        the EIC that would not require a Form 8862.
We estimate that completing the Forms 8862 could have wasted over 50,000 hours of taxpayer
time. The 50,000 hours is intended to be conservative and was computed by multiplying the
number of unnecessary Forms 8862 (50,000) by 1 hour for each Form. The Form 8862
Instructions stated that it would take about 2 hours and 20 minutes of time to complete the
Form 8862. However, many of the 50,000 returns would relate to income-only EIC and the
Form 8862 is easier to complete for these taxpayers.




5
    Earned Income Tax Credit, which is another name for the EIC.
                                                                                            Page 34
                     The Earned Income Credit Recertification Program
                            Continues to Experience Problems

Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 17,000 taxpayers (see page 5).
Methodology Used to Measure the Reported Benefit:
The methodology for this outcome uses the same random sample of 250 accounts used for the
outcome previously discussed for “Taxpayer Rights and Entitlements – Potential;
10,500 taxpayers for $20.8 million.”
Sample results indicate 15 (6 percent) of the 250 accounts did not have the indicators removed
when the EIC claimed was allowed. When these sample results are projected to the population
of 876,000 accounts, we found 52,000 accounts still had erroneous indicators. Five (2.0 percent
of the 250) of these 15 accounts later had tax returns examined because the recertification
indicators had not been removed.
Using this 2.0 percent error rate times the population of 876,000 provides an estimate that of the
52,000 accounts with erroneous indicators, approximately 17,000 taxpayers incorrectly had their
tax returns examined. Based on these results, our projection has a 95 percent confidence level
with a +/- 2 percent precision level.




                                                                                           Page 35
The Earned Income Credit Recertification Program
       Continues to Experience Problems

                                                   Appendix V


 Management’s Response to the Draft Report




                                                       Page 36
The Earned Income Credit Recertification Program
       Continues to Experience Problems




                                                   Page 37
The Earned Income Credit Recertification Program
       Continues to Experience Problems




                                                   Page 38
The Earned Income Credit Recertification Program
       Continues to Experience Problems




                                                   Page 39
The Earned Income Credit Recertification Program
       Continues to Experience Problems




                                                   Page 40
The Earned Income Credit Recertification Program
       Continues to Experience Problems




                                                   Page 41
The Earned Income Credit Recertification Program
       Continues to Experience Problems




                                                   Page 42
The Earned Income Credit Recertification Program
       Continues to Experience Problems




                                                   Page 43
The Earned Income Credit Recertification Program
       Continues to Experience Problems




                                                   Page 44
